Credit Card
Agreement
and Truthin-Lending
Disclosure

24-Hour Loan Center: 866.933.6333
MichiganFirst.com

Federally insured by the
National Credit Union Administration.

Revised 06/2021 SLIMF150

Rewards.Visa.Truth in.Lending.12.2020.pdf 1

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 13

To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing address,
and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the
purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing [or
electronically] at:
Michigan First Credit Union
27000 Evergreen Road
Lathrup Village, MI 48076
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point,
if we think you owe an amount and you do not pay, we
may report you as delinquent.

13

Rewards.Visa.Truth in.Lending.12.2020.pdf 2

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 12 501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 1

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you if
we have already corrected the error.
2. Within 90 days of receiving your letter, we must
either correct the error or explain to you why we believe
the bill is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.
• The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your
balance.
• We can apply any unpaid amount against your credit
limit.
• After we finish our investigation, one of two things
will happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will
have to pay the amount in question, along with
applicable interest and fees. We will send you a
statement of the amount you owe and the date
payment is due. We may then report you as
delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you
as delinquent without als o reporting that you are
ques tioning your bill. We mus t tell you the name of
anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not
have to pay the first $50 of the amount you question even
if your bill is correct.
Your Rights If You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount
due on the purchase.

12

Rewards.Visa.Truth in.Lending.12.2020.pdf 3

MICHIGAN FIRST CREDIT UNION

CREDIT CARD AGREEMENT
AND TRUTH-IN-LENDING DISCLOSURE
THIS IS YOUR AGREEMENT WITH MICHIGAN
FIRST CREDIT UNION (CREDIT UNION) REGARDING
RIGHTS AND RESPONSIBILITIES ASSOCIATED
WITH OBTAINING A VISA® CREDIT CARD. THE
DISCLOSURE STATEMENTS THAT FOLLOW
ARE REQUIRED BY FEDERAL REGULATIONS,
INCLUDING THE TRUTH IN LENDING AND FAIR
CREDIT BILLING ACTS. PLEASE READ THIS
DISCLOSURE CAREFULLY TO BE FAMILIAR WITH
YOUR RIGHTS AND RESPONSIBILITIES. IT IS
IMPORTANT TO RETAIN THIS NOTICE FOR FUTURE
REFERENCE AND TO NOTIFY US AT ONCE IF ANY
PARTS ARE UNCLEAR.
1. WORDS OFTEN USED IN THIS AGREEMENT.
The word “Agreement” means this Michigan First Credit
Union Credit Card Agreement and Truth-in-Lending
Disclosure and the document provided to you along with
this agreement and disclosure containing Credit Card
Account Opening Disclosures and information concerning
How Your Annual Percentage Rate is Determined. In this
Agreement, the words “you” and “your” mean or refer to
each and all persons who have applied for the Card or
Cards. “Card” means the Visa Credit Card or Cards, and
any duplicates and renewals thereof, or substitutions
thereof, we may issue to you. “Account” means your Visa
Credit Card line of credit loan account with us. “We,” “us”
and “ours” means or refers to Michigan First Credit Union
and the document provided to you along with this
agreement and disclosure containing Credit Card Account
Opening Disclosures and information concerning How
Your Annual Percentage Rate is Determined.
2. THIS IS YOUR CONTRACT WITH US. Once this
Agreement is sent to you, it becomes a binding contract.
When you (i) signed a paper application for your Account, (ii)
completed an on-line application for your account, (iii)
applied for your Account by calling our Call Center, or (iv)
applied for your account in person with one of our Financial
Sales Representatives, you acknowledged that you would
receive a copy of this Agreement and promised to abide by
the terms of this Agreement, including all applicable laws.
This Agreement is a Truth-In-Lending Disclosure Statement
as well as a contract.
3. SIGN THE CARD. Your Card(s) have been embossed
as you have directed. Each Card must be signed (in the space
provided on the back) by the person whose name is embossed
thereon. That signature must be in the same form as embossed
on the front of the Card. However, your liability under this
Agreement does not depend on whether you sign your Card.
4. USING THE CARD. By using this Card, you are
agreeing to comply with the terms of this Agreement. To
make a Purchase or Cash Advance, present the Card to a
participating Visa plan merchant or financial institution and
sign the sales draft or cash advance draft (when required)
which will be imprinted with your Card or generated after
your Card’s number has been magnetically read or
otherwise provided. Please note that we are not responsible
1

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 2

if a particular Visa plan merchant or financial institution
refuses
to honor
your Card.orYou
can receive
a copy of any
if a particular
Visa
plan merchant
financial
institution
youyour
signCard.
or a corresponding
transaction
refuses todraft
honor
You can receive
a copy ofslip when
should retaintransaction
all such items
any draftusing
you the
signCard.
or aYou
corresponding
slip to verify
yourthe
monthly
statement.
willall
upon
request
you
when using
Card. You
shouldWe
retain
such
itemsfurnish
to
withmonthly
a copy statement.
of a draft You
for amay
charge
verify your
use per
yourcopy;
Cardhowever,
will be no
cases involving
errorfor
resolution.
to makethere
purchases
andcharge
cash inadvances
primarily
mayoruse
your Card
to make
purchases
personal,You
family,
household
purposes.
In addition,
youand cash
advances
primarily
forthe
personal,
family,
household
may obtain
cash advances
from
Credit Union
or or
from
purposes.
In addition,that
youaccept
may obtain
advances
from
other financial
institutions
Visacash
Cards
or
the accept
Credit Visa
UnionCards.
or from
other financial
institutions
that
ATMs that
Whenever
you request
a
accept
Cards
or ATMs
thatyour
accept
Visa Cards.
transaction,
you Visa
may be
required
to prove
identity.
Whenever
requestappears
a transaction,
may be required
When the
amount you
advanced
on a you
subsequent
to that
prove
your identity.
When
amount advanced
statement,
statement
reference
will the
be conclusive
on a To
subsequent
statement,
evidenceappears
of the request.
obtain an advance
at anthat
ATMstatement
will be conclusive
evidence
of the
request. To
you mustreference
use a Personal
Identification
Number
(PIN)
an use
advance
at an
ATM you must use a Personal
that was obtain
issued for
with the
Card.
Identification Number (PIN) that was issued for use with
5. ILLEGAL
TRANSACTIONS. You agree that you
the Card.
will only use
Account
for transactions that
areagree
legal that you
5. your
ILLEGAL
TRANSACTIONS.
You
where you
reside.
Display
a payment
card logo bythat
an are legal
will
only use
yourof
Account
for transactions
online merchant
does
not Display
mean that
transaction
withby an onwhere you
reside.
of athe
payment
card logo
line merchant
does not
thatYou
the agree
transaction
that merchant
is legal where
youmean
reside.
not towith that
is legal
where
you reside.
not to use
use your merchant
Card for any
illegal
transactions.
WeYou
willagree
not be
yourengage
Card for
liable if you
in any illegal
illegal transactions.
transactions.We will not be liable
if you engage
in any
illegal
transactions.
6. PROMISE
TO PAY.
You
promise
to repay to us all
6. FINANCE
PROMISE CHARGE
TO PAY. You
promise
to repay
debts and the
thereon
arising
from to us all
debts and
from
any authorized
usethe
ofFINANCE
the Card. CHARGE
You agreethereon
not toarising
let
use without
of the Card.
You agree
not to let
someone any
elseauthorized
use the card
our consent.
If the
someone else use the card without our consent. If the
application was signed by two persons, the Account is
application was signed by two persons, the Account is
joint: that is, each of you, separately and jointly with
joint; that is, each of you, separately and jointly with each
each other,
is is
liable
debts on
onthe
theAccount
Account
other,
liablefor
forall
all debts
andand
FINANCE
FINANCE
CHARGE(S).
Your
obligation
pay
suchdebts and
CHARGE(S).
Your
obligation
to to
pay
allallsuch
debts and
FINIANCE
CHARGE(S)
continues
FINANCE
CHARGE(S)
continues
eveneven
though an
though an
agreement,
divorce
decree
or other
agreement,
divorce
decree
or other
courtcourt
judgment to
judgmentwhich
to which
wenot
area party
not amay
party
maythat
direct
we are
direct
onlythat
one of you,
only one or
ofsome
you, person
or someother
person
youof(oryou),
bothmust pay
thanother
you than
(or both
such pay
debts
anddebs
FINANCE
CHARGE.
of you), must
such
and FINANCE
CHARGE.
7. CREDIT
LINE.
we approved
your application,
7. CREDIT
LINE. When
weWhen
approved
your application,
we established
a self-replenishing
line of
for you and
we established
a self-replenishing
line of credit
forcredit
you and
notified
youamount
of the thereof
amount(“credit
thereof limit”)
(“creditinlimit”)
notified you
of the
the in the
yourwere
Card/s
were attached
to. That document
is
documentdocument
your Card/s
attached
to. That document
is
hereby incorporated
partAgreement.
of this Agreement.
You
hereby incorporated
herein asherein
part ofasthis
You
let your Account
Balancesuch
exceed
such amount,
agree notagree
to let not
yourtoAccount
Balance exceed
amount,
and you
agree
usamount
the totalover
amount
over the
credit limit
and you agree
to pay
us to
thepay
total
the credit
limit
our demand
or not
we authorized
the
upon ourupon
demand
whether whether
or not we
authorized
the
advance(s)
whichyou
caused
you toyour
exceed
yourline.
credit line.
advance(s)
which caused
to exceed
credit
Unless
you
are in each
default,
each payment
Unless you
are in
default,
payment
you makeyou
on make
the on the
will replenish
your
credit
limitpart
by of
thethat
part of that
Account Account
will replenish
your credit
limit
by the
to principal.
mayanrequest an
payment payment
which is which
appliedistoapplied
principal.
You mayYou
request
increase
in the
credit
by aapplication,
written application,
increase in
the credit
limit
by alimit
written
which which
must be approved
us. We
may or
increase
or decrease
the
must be approved
by us. Webymay
increase
decrease
the
limit
from
time or
to may,
time with
or may,
with
goodrevoke
cause, revoke
limit from
time
to time
good
cause,
and terminate
this Agreement;
in either
your Cardyour
andCard
terminate
this Agreement;
in either event,
weevent, we
younotice
written
of such“Good
action.Cause”
“Good Cause”
will givewill
you give
written
ofnotice
such action.
includes
yourtofailure
of this Agreement
includes your
failure
satisfytothesatisfy
termsthe
of terms
this Agreement
or our reevaluation
adverse reevaluation
your creditworthiness;
in
or our adverse
of your of
creditworthiness;
in
either
we will
younotice
written
of such action.
either event,
weevent,
will give
you give
written
of notice
such action.
In the
event
your Account
is cancelled
or due
revoked
In the event
your
Account
is cancelled
or revoked
to due to
default,
theatbalance
at of
thedefault
time ofmay
default
may be transferred
default, the
balance
the time
be transferred
theUnion
Creditand,
Union
as a consequence
in-house in-house
with the with
Credit
as aand,
consequence
2

Rewards.Visa.Truth in.Lending.12.2020.pdf 4

2

41. SEVERABILITY. If any provision of this Agreement
is determined to be void or unenforceable under applicable
law, regulation, or rule, all other provisions of this
Agreement shall be valid and enforceable.
42. ENTIRE AGREEMENT/EFFECT OF AGREEMENT.
This Agreement, together with any application you signed or
otherwise submitted in connection with the Account and any
mailer/document sent to you with your Card (all of which are
hereby incorporated by reference in this Agreement),
constitutes the entire agreement between you and us relating
to your Account, supercedes any other prior or
contemporaneous agreement between you and us relating to
your Account, and applies to every transaction relating to the
Account even though a sales or cash advance draft you sign
or a credit slip may contain different terms. This Agreement
may not be amended except in accordance with the
provisions of this Agreement. You further acknowledge
receipt of a copy of this Agreement.
43. CREDIT UNION MEMBERSHIP. You understand
and agree that the closing of your Credit Union Regular
Share Account terminates your status as a member of the
Credit Union, and upon such closing, you can no longer
obtain credit with the Credit Union Visa Card.
The following is important information regarding your
right to dispute billing errors.
Your BILLING Rights –
Keep This NOTICE For Future Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act. What
To Do If You Find A Mistake On Your Statement If you
think there is an error on your statement, write to us at:
Michigan First Credit Union
27000 Evergreen Road
Lathrup Village, MI 48076
In your letter, give us the following information:
• Account information: Your name and account
number.
• Dollar amount: The dollar amount of the suspected
error.
• Description of problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to
investigate any potential errors and you may have to pay
the amount in question.

11

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 3

34. SECURITY INTEREST. If you separately signed
the portion of your application for this Account dealing
with the creation of a security interest, you grant us a
security interest in all present and future shares and
deposits you have with us, whether you own them singly
or own them jointly but have the right to withdraw from
them without the consent of another person not obligated
on the account to secure your Account. This grant does
not apply to Individual Retirement Accounts and other
accounts which provide tax benefits under state or federal
laws. Upon default under this Agreement you agree that
we may apply all of your shares and deposits subject to
this security interest to pay amounts due on the Account
under this Agreement. You also agree to grant us a
security interest in collateral (other than collateral
consisting of (i) real estate that is your principal residence
and (ii) household goods) securing other loans with us to
secure your Account.
35. BUSINESS DAY. Our business days are Monday
through Friday. Saturdays, Sundays and federal holidays
are excluded.
36. GOVERNING LAW. The Agreement and your
Account and any claim, dispute, or controversy arising from
or relating to this Agreement or your Account, whether
based on contract, tort, fraud, and other intentional torts,
statute, common law and/or equity, are governed by and
construed in accordance with the laws of the State of
Michigan (without regard to its conflicts of laws
principles or rules) and applicable federal laws. The
legality, enforceability and interpretation of this
Agreement and the amounts contracted for, charged and
received under this Agreement will be governed by such
laws. This Agreement is entered into between you and us
in the State of Michigan, and we make credit decisions
under this Agreement from the State of Michigan. You
further consent to the jurisdiction and venue of the State
or Federal Courts having jurisdiction over the City of
Lathrup Village, Oakland County, Michigan.
37. ASSIGNMENT. We may sell, assign or transfer all
or any portion of your Account, or any balance due under
your Account, without prior notice to you. You may not
sell, assign or transfer your Account or any obligations
under this Agreement.
38. LOST/STOLEN CARDS. You agree to notify us
immediately upon discovering that your Card has been
lost or stolen by calling us at 866.820.2946
or 800.664.3828.
39. INFORMATION ABOUT YOU AND YOUR
ACCOUNT. We will not disclose your non-public
personal information to unaffiliated third parties except as
otherwise permitted or authorized by law. Please refer
to our Privacy Policy Notice for a full explanation of how
we protect your information. You may obtain a copy of
our Privacy Policy Notice by calling us at 800.664.3828.
40. BENEFITS AND PROGRAMS. We may from
time to time offer additional services to your Accounts or
special programs related to you being a Cardholder, such
as travel accident insurances, at no additional cost to you.
You understand and agree that we are not obligated to
offer such services or programs and may withdraw or
change them at any time.
10

Rewards.Visa.Truth in.Lending.12.2020.pdf 5

thereof, bethereof,
separately
billed as an
in house
or
be separately
billed
as an arrangement
in house arrangement
or
included within
any
otherany
open-end
credit plan
you plan
have you have
included
within
other open-end
credit
with us, with
to be at the
and under
the under the
withcollection
us, with collection
tosame
be at rate
the same
rate and
same terms
conditions
as provided
for in this
sameand
terms
and conditions
as provided
for in this
Agreement.
You may terminate
this Agreement,
at any time
Agreement.
You may terminate
this Agreement,
at any time
and for and
any for
reason,
giving
written
any by
reason,
by usgiving
us notice.
written notice.
Nevertheless,
termination
by you orbybyyou
us does
Nevertheless,
termination
or bynot
us affect
does not affect
your obligation
to pay alltodebts
FINANCE
CHARGECHARGE
your obligation
pay and
all debts
and FINANCE
thereon arising
from
authorized
use of your
Card.
TheCard.
CardsThe Cards
thereon
arising
from authorized
use
of your
remain our
property
you must
recover
surrender
to
remain
our and
property
and you
mustand
recover
and surrender
to
us all Cards
upon
our upon
request
upon termination
of this of this
us all
Cards
ourorrequest
or upon termination
Agreement.
Agreement.
8. JOINT8.
ACCOUNTS.
If more than
one person
signed
JOINT ACCOUNTS.
If more
than one
person signed
the application,
each person
who
signed
it promises
to pay to pay
the application,
each
person
who
signed it promises
all amounts
to us
under
Agreement.
Each of you
all owed
amounts
owed
to this
us under
this Agreement.
Each of you
authorizesauthorizes
the other(s)
make purchases,
withdrawals
or
thetoother(s)
to make purchases,
withdrawals
or
cash advances
individually.
Any one of
youone
may
thecancel the
cash advances
individually.
Any
of cancel
you may
Account. Account.
The cancellation
will be effective
to all of you.
The cancellation
will be effective
to all of you.
Each of you
is of
jointly
and
severally
obligated.obligated.
This means
Each
you is
jointly
and severally
This means
that we may
money
owed
to us
fromtoeach
of you
or of you or
thatcollect
we may
collect
money
owed
us from
each
from all from
of you
of your of
current
all regardless
of you regardless
your domestic
current domestic
relationship
or other legal
proceedings.
In any event,
all event,
of
relationship
or other
legal proceedings.
In any
all of
you will continue
to
be
jointly
and
severally
obligated
until
you will continue to be jointly and severally obligated
until
all Cards all
areCards
returned
the debt
extinguished.
are and
returned
andisthe
debt is extinguished.
9. AUTHORIZED
USERS. You
may You
allowmay
Authorized
9. AUTHORIZED
USERS.
allow Authorized
Users on Users
your Account
by notifying
us that you
wantyou want
on your Account
by notifying
us that
someone someone
added to the
account
as
an
Authorized
User
and User and
added to the account as an Authorized
obtaining obtaining
our consent.
though not
allowed,
our Additionally,
consent. Additionally,
though
not allowed,
you will be
have personally
authorizedauthorized
another another
youdeemed
will betodeemed
to have personally
user in the
following
ways: (1)ways:
by lending
Cardyour
or Card or
user
in the following
(1) byyour
lending
Account Account
Number Number
to another
(without (without
our required
to another
our required
consent); consent);
or (2) by any
other
means
in which
wouldyou
be would be
or (2)
by any
other
means you
in which
legally considered
to have allowed
use your
legally considered
to have another
allowed toanother
to use your
Account or
be legally
prevented
from denying
you did
Account
or be
legally prevented
fromthat
denying
that you did
so. You should think carefully before you allow someone to
so. You should think carefully before you allow someone to
become an Authorized User (in any manner). By doing so,
become an Authorized User (in any manner). By doing so,
you authorize the person to use your Account to the same
you authorize the person to use your Account to the same
extent you can, including but not limited to making
extent you can, including but not limited to making
Purchases, Cash Advances, Balance Transfers and allowing
Purchases, Cash Advances, Balance Transfers and allowing
others to use your Account. Your Account does not permit
others to use your Account. Your Account does not permit
you to limit the nature or amount of authority you give to
you to limit the nature or amount of authority you give to
any Authorized User and you agree that you will not
any Authorized User and you agree that you will not
attempt to do so. An Authorized User’s authority will
attempt to do so. An Authorized User’s authority will
continue until you both notify us that you are terminating
continue
untilphysically
you both retrieve
notify usthe
that
you Ifareyou
terminating
the authority
and you
Card.
the authority
andyou
you will
physically
the any
Card. If you
cannot retrieve
the Card,
remainretrieve
liable for
cannot
retrieve
the Card,
will remain
transactions
we cannot
prevent
after you
you notify
us. liable for any
transactionsWe
we cannot
prevent
you notify
us.
10. PAYMENTS.
will send
you aafter
statement
every
10. PAYMENTS.
will send
you a statement
every
month showing
your Previous We
Balances
of purchases
and
monththe
showing
Previous
of purchases
and
cash advances,
current your
transactions
onBalances
your account,
the
advances,
current
transactions
onthe
your
account, the
remainingcash
credit
availablethe
under
your
Credit Line,
New
credit
under your
Line, the New
Balances remaining
of purchases
andavailable
cash advances,
the Credit
Total New
of purchases
and due
cashtoadvances,
Balance, Balances
the FINANCE
CHARGE
date, andthetheTotal New
FINANCE
to date,
MinimumBalance,
Paymentthe
required.
EveryCHARGE
month youdue
promise
to and the
Minimum
Payment
required.
pay at least
the Minimum
Payment
on orEvery
beforemonth
the dueyou
datepromise to
at least
the Minimum
Payment
on orpay
before
the due date
shown onpay
your
statement.
You may,
of course,
more
on than
yourthestatement.
late payment
fee (as set
frequently,shown
pay more
MinimumA
Payment,
or pay the
forth
in the fee
schedule
this the
Agreement)
Total New
Balance
in full,
and included
you willwith
reduce
be charged
if the
minimum
payment due
FINANCEwill
CHARGE
by doing
so.required
The Minimum
Payment
under
Agreement
notBalance
received
on or tobefore the
will be either
(a) this
3% of
your Total is
new
(rounded
the nearesttenth
dollar),
$25.00,
whichever
is greater,
or (b)
day orafter
its due
date. You
may, of
course, pay
your totalmore
New Balance,
if itpay
is less
thanthan
$25.00
(c) any Payment,
frequently,
more
the plus
Minimum
or pay the Total New
3 Balance in full, and you will reduce
3

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 4

the FINANCE CHARGE by doing so. The
Minimum Payment will be either (a) 3% of your Total
new Balance (rounded to the nearest dollar), or
$25.00, whichever is greater, or (b)your total New
Balance, if it is less than $25.00 plus (c) any portion
of the Minimum Payment(s) shown on prior
statement(s) which remains unpaid. In addition, at any
time your total New Balance exceeds your credit limit,
you must immediately pay the excess upon our demand.
Any payment check or other form of payment that you
send us for less than the full balance due that is marked
“paid in full” or contains a similar notation, or that
you otherwise tender in full satisfaction of a disputed
amount, must be sent to
Michigan First Credit
Union, 27000 Evergreen Road, Lathrup Village, MI
48076. We reserve all our rights regarding these payments
(e.g., if it is determined that there is no valid dispute or if
any such check is received at any other address, we may
accept the check and you will still owe any remaining
balance). We may refuse to accept any such payment by
returning it to you, not cashing it, or destroying it. All
other payments that you make should be
sent to the appropriate payment address.
The Credit Union at its sole discretion, may give you the
option of skipping one or more monthly credit card
payments during the calendar year. If you are eligible to skip
a payment for any given month the minimum monthly
payment shown on your periodic statement will be zero. If
you do so, interest charges on outstanding balances will
continue to accrue during those months, but late charges will
not be applied. Here’s the best part - you don’t even need to
apply.
11. PAYMENT ALLOCATION. We may select and
change the method by which payments and credits are
allocated to your account at our sole discretion; however,
payments will be allocated to billed amounts before they are
allocated to unbilled amounts (transactions incurred since
your last statement) and payments amounts in excess of the
required minimum monthly payment will be applied to
higher rate balances before they are applied to lower rate
balances. Payment for more than the minimum amount due
will be accepted as a single payment for the month; the
amount over the minimum is not applied toward future
payments due.
12. FINANCE CHARGE. Your account is subject to a
variable rate. Your ANNUAL PERCENTAGE RATE
(APR) may increase or decrease if the Index used by the
Credit Union increases or decreases. The Index is the highest
rate of interest identified as the “Prime Rate” in the “Money
Rates” section of The Wall Street Journal on the third
business day preceding the end of the most recently
concluded calendar quarter. To determine the ANNUAL
PERCENTAGE RATE that will apply to your account, a
Margin is added to the value of the Index. Your Margin and
the required disclosures of your ANNUAL PERCENTAGE
RATE and corresponding monthly periodic rate are set forth
in the “How Your Annual Percentage Rate is Determined”
section of the separate document provided to you referred to
in Section 1. The ANNUAL PERCENTAGE RATE can
change quarterly on the first day of the billing cycles which
begin in the months of January, April, July, and October.
There is no limit on the amount by which the ANNUAL
PERCENTAGE RATE can change except that the
ANNUAL PERCENTAGE RATE will never be more than
25.00%. In no event will the rate ever exceed the maximum
rate permitted by law.
4

Rewards.Visa.Truth in.Lending.12.2020.pdf 6

31. LIABILITY FOR FAILURE TO
COMPLETE TRANSACTIONS. We will not be liable for
transactions that are not completed if any of the following
circumstances apply:
• Through no fault of ours, you do not have
sufficient funds available in your credit line;
• The transaction would cause you to exceed your
credit limit;
• The ATM where you are requesting a cash
advance does not have enough cash;
• The terminal or system was not working properly
and you knew of the malfunction at the time you
initiated the transactions;
• Circumstances beyond our control (such as fire or
flood) prevent the transaction, despite reasonable
precautions we have taken;

• Your Card is retained by the ATM;
• Your Card or PIN has been reported lost or stolen
and your account has been blocked or frozen;
• Your account is in default;
• You or anyone authorized by you to conduct a
transaction commits fraud or violates any laws or
regulations; or
• You fail to follow the instructions on the screen or
terminal.
32. LIABILITY FOR UNAUTHORIZED USE.
You may be liable for the unauthorized use of your credit
card. You will not be liable for unauthorized use that
occurs after you notify Michigan First Credit Union
at the address or telephone number set forth below.
You must notify us orally or in writing of the loss, theft,
or possible unauthorized use. In any case, your
liability will not exceed $50.00. Notify us at:
Card Services Dispute Processing
P.O. Box 37035
Boone, IA 50037
866.820.2946
Or
Michigan First Credit Union
27000 Evergreen Road
Lathrup Village, Michigan 48076
800.664.3828

33.
LIMITATIONS
OF
RESPONSIBILITY.
We will not
be
responsible
for
merchandise
or services purchased by you with the Card. We are
not liable for the refusal or inability of merchants,
financial institutions and others to accept your card(s) or
electronic terminals to honor them or complete a
transaction, or for their retention of the Card(s).

9

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 8

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 5

merchant’s cancellation number.
• Recurring Transactions – If you authorize a merchant
to charge your Account for repeat transactions without
your Card, you must notify the merchant, and not us,
when you want to discontinue the repeat transactions.
• Dispute Access – If you disagree with a transaction on
your statement or have a dispute with a merchant as a
result of a transaction, you agree to provide us with
information and assistance we reasonably request.
Otherwise, you will pay us for any resulting loss we
have, unless we are prohibited by law from holding
you liable for our loss.
27. CARD AGREEMENT. You understand that your Visa
Credit Card is issued by us, remains our property, and is
subject to rules governing ATM networks, which financial
institutions must follow. The Cards are not transferable. By
using your Card, you are agreeing to the following additional
terms: (1) To abide by the rules and regulations and those of
the participating ATM network as may be amended; (2) That
we and the ATM network may follow all electronic
instructions given through the ATM; (3) that we may restrict
the use of or terminate your Card at any time without notice
to prevent loss to your account or to the Credit Union; (4)
your Card may not be used for any illegal transaction.
28. DAILY LIMITS. You agree to adhere to any daily
limits established by the Credit Union in conformance with
the ATM network agreement and which are subject to
modification to preserve the integrity of the ATM network
and prevent loss to the Credit Union or its members.
The current daily limit is $800.00, the credit union may
change this limit in its discretion and without prior notice.
29. PERSONAL IDENTIFICATION NUMBER (PIN).
Upon request we will furnish you with a Personal
Identification Number (PIN). You agree to keep the PIN
confidential. You also agree you won’t write the PIN on the
Card or anything you keep with the Card. Your use of the PIN
and Card in getting a Cash Advance or making a Purchase is
agreed to constitute your signature for purposes of such
transactions. You can also use your card together with your
Personal Identification Number (PIN) to get a Cash Advance
from an Automated Teller Machine (ATM) in the Visa
Network, to get a Cash Advance from a Visa financial
institution, or to make a Purchase from a merchant that uses
the Card in an electronic terminal that accesses the Visa
system. IF YOU FORGET OR DO NOT ENTER YOUR PIN
CORRECTLY, THE ATM MAY KEEP YOUR CARD THE
THIRD TIME THE PIN IS ENTERED INCORRECTLY.
THIS PROCEDURE IS FOR SECURITY MEASURES.
KEEP YOUR PIN IN A SECRET PLACE. If you authorize us
to issue a Card to anyone else for use through any electronic
access device, you are authorizing that individual to withdraw
funds from any account which can be accessed by that Card,
regardless of whether that individual is authorized to withdraw
money from the account by any other means.
FEES
CHARGES.
agree
30.
AND
You
to pay
the various fees and charges with respect to
your Account as set forth in the fee schedule included
with this Agreement or as otherwise provided to you.
You agree to pay any related charges that are imposed
as a result of your use of the Visa Credit Card or an ATM.

Any change in the ANNUAL PERCENTAGE RATE
affects your entire balance and is effective at the beginning
of the first billing cycle which follows the change. The
Credit Union reserves the right to substitute a similar index
if the index described above becomes unavailable.
The FINANCE CHARGE is calculated by applying the
above periodic (monthly) rate to the Average Daily
Balance (including new purchases). An “Average Daily
Principal Balance” is calculated separately for purchases
and cash advances and is determined as follows: For each
day during the statement period (billing cycle) the
principal balances of purchases and of cash advances
from the previous day are increased by any purchases or
cash advances posted to the Account that day and
decreased by any payments or credits posted to the
Account that day. Such daily principal balances are
separately totaled and then divided by the number of days
in the statement period (billing cycle), resulting in the
“Average Daily Principal Balances” of purchases and
cash advances shown on your statement.
You can avoid FINANCE CHARGES on purchases by
paying the full amount of the New Balance of Purchases
each month on or before the payment due date shown on
your monthly statement. Otherwise, the New Balance of
Purchases, and subsequent purchases from the date they
are posted to your account, will be subject to FINANCE
CHARGE, except that if during the previous billing cycle
you paid all amounts owing in full by the Payment Due
Date, then in the current billing cycle you will have a free
interest period on the amount of the New Balance of
Purchases remaining from the previous billing cycle that
is paid by the Payment Due Date based on our payment
allocation method.
13. PERIODIC STATEMENTS. We will send you a
statement every month showing your previous balance,
purchases and cash advances, payments made on your
account, periodic rate, annual percentage rate, finance
charge and its method of computation, any other charges,
free interest period, payment due date, procedures for error
resolution, Minimum Payment required, and the closing
date with corresponding New Balance for the billing cycle.
You may not receive a statement on your Account if there
has been no activity or if collections procedures have been
initiated against you because you are in default. Each
statement is deemed to be a correct statement unless you
establish a billing error pursuant to the Federal Truth in
Lending Act as described in this Agreement.
14. DEFAULT. You will be in default and we may, to
the extent permitted by law, terminate your credit line and
declare the entire unpaid balance of the account
immediately due and payable, under any of the following
conditions:
• you fail to make the minimum payment by the
statement payment due date;
• you breach any other promises made in or conditions
of the Agreement and/or any other agreement with us;
• you use your card for an illegal transaction;
• if you become involved in any insolvency, receivership,
guardianship, conservatorship, or any other proceeding
which determines you are incapable of managing your
financial affairs, including filing for Bankruptcy;
• you have made a false or misleading statement in your

8

5

Rewards.Visa.Truth in.Lending.12.2020.pdf 7

06/25/21 5:04 PM

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 6

501578_5B MIFCU1 12_24.QXD_Layout 1 12/28/11 1:38 PM Page 7

credit application and/or in your representation to us
while you owe money on your account;
• a judgment or tax lien is filed against you or any
attachment or garnishment is issued against any of
your property or accounts, including anyone starting
an action or proposing to seize any of your funds on
deposit with us;
• we in good faith determine that your creditworthiness
(which includes your ability to repay us) has become
unsatisfactory due to change in employment, increase
in your other obligations, or because of any other
reason, time being of the very essence;
• you die; or
• government action precludes us from imposing the
annual percentage rate or a government authority has
notified us that continued advances constitute an
unsafe and unsound practice.
In the event of any default, we may, at our option,
declare the entire balance on the Account to be
immediately due and payable. If you are in default we
may, instead of terminating your Account and declaring
the entire unpaid balance due and payable, suspend your
credit privileges but not declare what you then owe
immediately due and payable. If we do the latter, we
reserve the right to later terminate the Account and declare
the entire unpaid balance due and payable at any time
before you cure the default by paying all past due amounts.
15. COLLECTION COSTS. You also agree that, in
case of default, you will pay all usual and customary costs
of collection permitted by law, including, but not limited
to, attorney fees and expenses incurred by us in the
enforcement of this agreement.
16. DELAY OR FAILURE TO ENFORCE. We do not
lose our rights under this or any related agreement if we
delay or fail to enforce them. We can accept late payments
or partial payments without losing any of our rights under
this Agreement.
17. NOTIFICATION OF ADDRESS CHANGE. You
agree to notify us promptly if you change your name,
street address, email address or telephone number.
18. ADDRESS FOR NOTICES TO US. All notices
under this Agreement must be in writing and mailed to
Michigan First Credit Union, 27000 Evergreen Road,
Lathrup Village, Michigan 48076.
19. CHANGE IN TERMS. From time to time, we may
amend this Agreement by mailing a written notice of the
amendment to you at the last address shown for you in our
records. In the event the terms we are changing require
advance notice by law, we will comply with the
requirements of that law.
20. YOU MAY CANCEL THE ACCOUNT. You may
cancel the account whenever you choose. If you do, you
agree to cut each Card in half and return it to us at the
address shown in Section 18 above, along with your
written notification that you wish to cancel the Account.
Such cancellation will become effective within five days
after the notice is received by us. You will still be
responsible for the repayment of any outstanding balance
on your Account and any other amounts that have not yet
been billed to you.
21. WE MAY CANCEL THE ACCOUNT. We have
the right to cancel the Account at any time upon written

notice sent to you at the last address shown for you in our
records. You agree to discontinue the use of the Cards, and
to return the Cards to us, at our request.
22. CREDIT REPORTING AGENCIES. You authorize us
to investigate your credit standing when opening, renewing or
reviewing your Account, and you authorize us to disclose
information regarding our experience with you under this
Agreement to consumer reporting agencies, bureaus and
other creditors. If you request it, we will provide the name
and address of each consumer reporting agency used for this
purpose. If you believe we have reported inaccurate
information about you to a consumer reporting agency, please
notify us at Michigan First Credit Union, 27000 Evergreen
Road, Lathrup Village, Michigan 48076. In doing so, please
identify the inaccurate information and tell us why you
believe it is incorrect. If you have a copy of the credit report
that contains the alleged inaccurate information, please send
us a copy of that report as well. You are hereby notified that
negative information will be provided to appropriate
consumer reporting agencies if you fail to perform your
obligations under this agreement.
23. TRANSACTION SLIPS. Your periodic statement
will identify the merchant, electronic terminal location, or
financial institution at which transactions were made. You
must retain the copy of such slips furnished at the time of
each transaction in order to verify the transactions listed
on your statement as transaction slips cannot be provided
by Michigan First Credit Union.
24. CREDITS. If merchants who honor your Card give
you a credit for returns or adjustments, they will do so by
processing a credit which we will post to your Account.
You should keep your copy of the credit slip to verify
your monthly statement. If your credits and payments
exceed what you owe us on the Account we will credit
such excess to the Account and, if the amount is $1.00 or
more, we will credit it to your share account after two (2)
months or upon your written request.
25. FOREIGN TRANSACTIONS. Purchases and
cash advances made in foreign countries and foreign
currencies will be billed to you in U.S. dollars. The
exchange rate for transactions in a foreign currency will be
a rate selected by Visa from the range of rates available in
wholesale currency markets for the applicable central
processing date, which rate may vary from the rate
Visa itself receives, or the government mandated rate in
effect for the applicable central processing date. In
addition, as provided in Section 30, we will separately bill
you a 1% International Transaction Fee.

6

7

Rewards.Visa.Truth in.Lending.12.2020.pdf 8

26. TRANSACTIONS WITH MERCHANTS.
• Return Policies – If a merchant discloses a policy
such as but not limited to “no returns,” “no refunds,”
“as is,” or “all sales final” you will be bound by that
policy when you use your Account to buy goods or
services from that merchant.
• Reservations – When using your Account to make a
travel or lodging reservation, obtain the merchant’s
cancellation policy and follow it if you wish to
cancel. If you cancel, obtain the merchant’s
cancellation number that is required to be provided
to you. The merchant may charge you for a cancelled
transaction unless you can provide us with the

06/25/21 5:04 PM

